Department of Homeland Security
   Office of Inspector General

                 Review of Immigration and Customs 

                  Enforcement's Expenditure Plan





      American Recovery and Reinvestment Act of 2009





OIG-09-108                                              September 2009
                                                             Office ofIllspector Gelleral

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                                              Homeland
                                                              Security
                                         SEP 2 2 2009

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (DIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities for programs, grants, and
projects awarded by the department under the American Recovery and Reinvestment Act
of 2009 to promote economy, efficiency, and effectiveness within the department.

This report includes observations on the departmenf s efforts. to manage funds
appropriated by the American Recovery and Reinvestment Act of2009, and includes
issues that should be considered by the department and its components to improve the
management of those funds. We trust this report will result in more effective, efficient,
and economical operations. We express our appreciation to all those who contributed to
the preparation of this report.                                       •
                                      4~~~
                                      Richard L. Skinner
                                      Inspector General
Table of Contents/Abbreviations

Executive Summary .............................................................................................................1



Background ..........................................................................................................................2 


Results of Review ................................................................................................................3 


     Recommendations..........................................................................................................5 


     Management Comments and OIG Analysis ..................................................................6 



Appendices
     Appendix A:           Purpose, Scope and Methodology..........................................................7 

     Appendix B:           Management Comments to the Draft Report .........................................8 

     Appendix C:           Major Contributors to This Report ......................................................11 

     Appendix D:           Report Distribution ..............................................................................12 


Abbreviations
     CBP                   Customs and Border Protection 

     DHS                   Department of Homeland Security 

     ICE                   Immigration and Customs Enforcement 

     OIG                   Office of Inspector General


OIG


Department of Homeland Security
Office of Inspector General

Executive Summary

                  We reviewed the Immigration and Customs Enforcement’s
                  expenditure plan as part of our oversight responsibilities to monitor
                  the use of funds provided to the Department of Homeland Security
                  under the American Recovery and Reinvestment Act of 2009
                  (Recovery Act). The Recovery Act provided $20 million to
                  Immigration and Customs Enforcement to procure and deploy
                  tactical communications equipment and radios. The Recovery Act
                  also requires that the recipients of Recovery Act funds develop an
                  expenditure plan for the use of the funds. Our objective was to
                  determine whether the plan is practical, thorough, and consistent
                  with prudent management principles, such as risk mitigation and
                  management control strategies.

                  Immigration and Customs Enforcement generally developed a
                  practical and comprehensive plan to spend Recovery Act funds to
                  procure and deploy tactical communications equipment and radios.
                  However, it will not meet all the goals of the Recovery Act, in
                  particular the quick-start activities Recovery Act goal.
                  Additionally, we identified opportunities for Immigration and
                  Customs Enforcement to better collaborate with Customs and
                  Border Protection to procure and modernize tactical
                  communications systems.

                  We are making one recommendation to Immigration and Customs
                  Enforcement, which is designed to improve collaboration and
                  coordination with Customs and Border Protection. Immigration
                  and Customs Enforcement concurred with our recommendation
                  and provided information on ongoing actions to collaborate and
                  communicate with Customs and Border Protection as well as
                  future plans and coordination meetings regarding tactical
                  communications. A copy of Immigration and Customs
                  Enforcement’s response is provided at Appendix B.




            Review of Immigration and Customs Enforcement’s Expenditure Plan 


                                         Page 1 

Background
               The American Recovery and Reinvestment Act of 2009, Public Law
               111-5, (Recovery Act) was enacted on February 17, 2009,
               allocating almost $787 billion to preserve and stimulate economic
               growth in the United States. The Recovery Act made
               supplemental appropriations to federal departments and agencies
               for infrastructure investment, energy efficiency and science,
               assistance to the unemployed and disabled veterans, and state and
               local stabilization for the fiscal year ending September 30, 2009.

               Under provisions of the Act, the Department of Homeland Security
               received approximately $2.8 billion for equipment, construction,
               infrastructure improvement, and emergency management grants.
               Immigration and Customs Enforcement (ICE) received $20 million
               of this amount for tactical communications modernization. The
               Recovery Act required that, within 45 days of enactment of the
               Act, the department submit to Congress a plan for expending these
               funds. Accordingly, on April 3, 2009, ICE issued its Atlas Tactical
               Communications Recovery Act Expenditure Plan (expenditure
               plan).

               We reviewed ICE’s expenditure plan to determine whether it is
               practical, thorough, and comprehensive, using provisions of the
               Recovery Act as our guide. Specifically, we reviewed the plan for
               evidence that ICE met the goals of the “preference for quick-start
               activities” and “special contracting” provisions. The goal of the
               quick-start activities general provision (Section 1602 of the
               Recovery Act) was to use at least 50% of the funds for activities
               that could be initiated within 120 days of the date that the Act was
               signed, or by June 17, 2009. The special contracting provision
               (Section 1554) recommended that, to the maximum extent
               possible, recipients use competitive procedures to award fixed-
               price contracts. We measured the expenditure plan against prudent
               management principles to determine whether the plan will achieve
               program goals while providing safeguards against fraud, waste,
               error, abuse, risk of delays, and cost overruns. We did not evaluate
               the original process ICE used to establish its criteria or any
               underlying assumptions.

               ICE plans to use its Recovery Act funds to carry out its original
               intent to modernize tactical communications in 2 of its 26 regions,
               Boston and Denver, in FY 2010. ICE’s current wireless tactical
               communications systems consist primarily of legacy, analog
               handheld radios and vehicular radio equipment that are not
               compliant with current standards for interoperability (known as P-

         Review of Immigration and Customs Enforcement’s Expenditure Plan 


                                      Page 2 

                         25 standards), nor with federal mandates for the use of Advanced
                         Encryption Standard and narrowband frequencies. 1 ICE plans to
                         replace its noncompliant legacy tactical communications systems
                         with interoperable, encrypted, narrowband equipment and radios.
                         ICE and Customs and Border Protection (CBP) plan to purchase
                         similar tactical communications radios made by the same
                         manufacturer. In addition to hand-held radio equipment, both ICE
                         and CBP require infrastructure upgrades, including radio frequency
                         repeaters and telecommunications circuits.

Results of Review
                         ICE generally developed a practical and comprehensive plan to
                         spend Recovery Act funds to procure and deploy tactical
                         communications equipment and radios. Although ICE did not
                         meet the Recovery Act goal of using 50% of the Recovery Act
                         funds for activities that could be initiated by June 17, 2009, it does
                         plan to obligate 100% of the Recovery Act funds by September 30,
                         2009. ICE is planning to use competitive procedures to award
                         fixed-price contracts. According to ICE’s spending plan, tactical
                         communications modernization in the Boston region is a joint
                         project with CBP. ICE must coordinate with CBP to ensure that
                         the project is completed effectively, efficiently, and economically
                         to meet their respective mission needs and support interoperability.

                         Quick-Start Activities Provision

                         ICE did not meet the quick-start goal of using at least 50% of its
                         Recovery Act funds for activities that could be initiated within 120
                         days of enactment of the date, or by June 17, 2009. However, ICE
                         plans to obligate 100% of its Recovery Act funds in the fourth
                         quarter of FY 2009 and outlay roughly 85% of the Recovery Act
                         funds during FY 2010. According to ICE officials, it did not meet
                         the June 17, 2009, date because it needs more time to develop and
                         award procurement contracts that will satisfy the requirements of
                         the Federal Acquisition Regulation.




1
  The Department of Commerce, National Institute of Standards and Technology requires federal agencies
to use Advanced Encryption Standard to protect sensitive information, effective May 26, 2006 and the
National Telecommunications and Information Administration requires all federal, land-mobile radio
systems to use narrowband frequencies, effective January 1, 2008.
                   Review of Immigration and Customs Enforcement’s Expenditure Plan

                                                Page 3
                                                            ICE Tactical Communication Obligations and Outlays


                                   $20




                                                                             100%
                                   $18


                                   $16


                                   $14
   Cost (In Millions of Dollars)




                                   $12


                                   $10


                                    $8


                                    $6

                                                           June 17th




                                                                                                                         22.50%
                                                                                                      20.70%




                                                                                                                                              21.80%




                                                                                                                                                                 21.20%
                                    $4




                                                                                                                                         0%




                                                                                                                                                                               0%
                                                                                                                                                                                    13.80%
                                                                                     0%



                                                                                                 0%




                                                                                                                    0%




                                                                                                                                                            0%
                                                 0%




                                                              0%




                                    $2


                                    $0
                                         Q2           Q3               Q4                  Q1                  Q2                   Q3                 Q4                 Q1
                                                           FY09                                                                   FY10                                         FY 11
Obligations                                   $0.00        $0.00            $20.00              $0.00               $0.00                $0.00              $0.00              $0.00
Outlays                                       $0.00        $0.00            $0.00               $4.14               $4.50                $4.36              $4.24              $2.76




                                                      The graph above shows ICE’s planned schedule of obligations and
                                                      outlays through FY 2010. An “obligation” is a commitment to pay
                                                      for something and an “outlay” is an actual payment. Funds that
                                                      have been obligated cannot be used for anything else and are
                                                      considered spent. Obligated funds may stimulate the economy by
                                                      increasing business operations, even though there may be a delay
                                                      of months or years before obligated funds are paid.

                                                      Special Contracting Provisions

                                                      According to its expenditure plan, ICE is meeting the special
                                                      contracting provision that it use Recovery Act funds to award
                                                      fixed-price contracts through competition. ICE is planning to
                                                      award approximately $18.6 million in Recovery Act funds using
                                                      the department’s First Source contract. The First Source contract
                                                      is the department’s preferred source for acquiring information
                                                      technology and is a small business set-aside contract. ICE plans to
                                                      award the remaining Recovery Act funds using U.S. General
                                                      Services Administration Government-wide Acquisition Contracts.
                                                      Both the First Source and the Government-wide Acquisition

                                                Review of Immigration and Customs Enforcement’s Expenditure Plan

                                                                                          Page 4
       Contracts are to be awarded on a firm-fixed price basis using
       competitive procedures.

       Coordination With Customs and Border Protection

       ICE needs to take additional steps to ensure effective coordination
       with CBP on modernizing tactical communications equipment.
       According to the expenditure plan, ICE will work jointly with CBP
       to modernize tactical communications equipment in the Boston
       region. However, the expenditure plan does not describe a process
       for coordination between the components, nor does it describe any
       joint planning activities that have taken place to date.

       ICE and CBP have a memorandum of understanding that provides
       general direction for cooperation on tactical communications
       needs. However, the memorandum of understanding, dated March
       2008, was signed before the Recovery Act was passed and is not
       specific to Recovery Act-funded projects. Therefore, the
       memorandum of understanding may not be sufficient to ensure that
       cooperative planning takes place for the use of Recovery Act
       funds.

       For example, according to the memorandum of understanding,
       “Each Focus Area will be supported by an independent
       requirements document which will include specific requirements
       identified by ICE within each Focus Area.” A focus area is a
       defined project within a given geographical location. CBP
       provided us with a copy of its requirements document for the
       Houlton Focus Area, which is in ICE’s Boston region. Although
       the document identified tactical communications interoperability
       with ICE as a critical operational requirement, it did not include
       any ICE-identified requirements. The need for more details in
       both the expenditure plan and the memorandum of understanding
       raises concerns that ICE may not effectively coordinate equipment
       procurements with CBP, thereby missing opportunities to
       maximize resources, such as volume discounts or infrastructure
       sharing. More important, where ICE does not properly coordinate
       with CBP in identifying requirements for the Houlton area, tactical
       communications systems may be modernized in a manner that may
       not meet ICE’s operational needs.

Recommendation
       We recommend that the Assistant Secretary for ICE, in
       conjunction with CBP, develop detailed plans for ensuring that
       Recovery Act funds are used to modernize tactical
 Review of Immigration and Customs Enforcement’s Expenditure Plan

                              Page 5
       communications equipment in a cost-effective manner that will
       meet their respective mission needs and ensure interoperability.

Management Comments and OIG Analysis
       ICE concurred with our facts, conclusions and recommendations.
       ICE stated that it has already taken some action to collaborate and
       communicate with CBP, as well as identified future plans and
       coordination meetings regarding tactical communications. We
       consider the recommendation resolved but open, pending receipt
       and review of documentation on these collaborative effort
       meetings, including the Acquisition Decision Memorandum.




 Review of Immigration and Customs Enforcement’s Expenditure Plan

                              Page 6
Appendix A
Purpose, Scope and Methodology

                    The objective of our review was to determine whether Immigration
                    and Customs Enforcement has developed a practical and
                    comprehensive plan to procure and deploy tactical
                    communications equipment and radios. Our review included a
                    determination of whether ICE followed its own criteria for
                    prioritizing projects. We did not evaluate the original process ICE
                    used to establish its criteria or any underlying assumptions. We:

                      x   Reviewed laws, regulations, and guidance related to the
                          American Recovery and Reinvestment Act of 2009.
                      x   Obtained information on the processes and controls in place
                          for budgetary resources management and financial and
                          contract management.
                      x   Examined prior Department of Homeland Security audit
                          reports in the program-specific areas of acquisition
                          management and acquisition workforce planning.
                      x   Analyzed ICE’s Atlas Tactical Communications Recovery
                          Act Expenditure Plan, dated April 3, 2009, for the
                          procurement and deployment of tactical communications
                          equipment and radios.
                      x   Analyzed documentation supporting the Recovery Act
                          expenditure plan, such as acquisition plans, methodologies,
                          and cost/benefit analysis of system upgrades.
                      x   Interviewed senior officials from the offices of the Chief
                          Information Officer and the Chief Financial Officer, as well
                          as Financial Operations, Procurement, and Tactical
                          Communications Program staff. We conducted these
                          interviews in Washington, DC, at ICE’s Headquarters and
                          Potomac Center North.

                    We conducted our review between April 2009 and June 2009
                    under the authority of the Inspector General Act of 1978.

                    We would like to thank the Immigration and Customs Enforcement
                    for their cooperation and courtesies extended to our staff during
                    this review.




              Review of Immigration and Customs Enforcement’s Expenditure Plan

                                           Page 7
Appendix B
Management Comments to the Draft Report




             Review of Immigration and Customs Enforcement’s Expenditure Plan 


                                          Page 8 

Appendix B
Management Comments to the Draft Report




             Review of Immigration and Customs Enforcement’s Expenditure Plan 


                                          Page 9 

Appendix B
Management Comments to the Draft Report




             Review of Immigration and Customs Enforcement’s Expenditure Plan 


                                         Page 10 

Appendix C
Major Contributors to This Report


                    Linda Howard, Director
                    J. Eric Barnett, Project Lead
                    Eliece Pizarro, Auditor
                    Elaine Ferguson, Program Analyst
                    Andrea Rambow, Desk Officer
                    Barry Cleveland, Program Analyst
                    Lisa Vonder Haar, Desk Officer




              Review of Immigration and Customs Enforcement’s Expenditure Plan 


                                          Page 11 

Appendix D
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




               Review of Immigration and Customs Enforcement’s Expenditure Plan 


                                           Page 12 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
